December 5, 2020
VIA OVERNIGHT FEDEX DELIVERY -Ira c_L
i
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543

4 3qq8 5q03 j S

Re: George Matthews, et uv., Petitioners v. Andrew J. Becker, et al.
Case No. 20-565
EXTENSION OF TIME REQUEST TO
DELAY DISTRIBUTION OF PETITION OF WRIT
TO FILE REPLY TO
PETITION FOR WRIT OF CERTIORARI AND
RESPONDENTS MOTION FOR DAMAGES
Dear Clerk of the Court,
Petitioner's petition in the above-captioned case was docketed on October 30,
2020. The Court called for a response on November 30, 2020, and a Brief in
Opposition was docketed by the Court on December 3, 2020. The first distribution
date after the 14-day period under Supreme Court Rule 15.5 appears to be
December 17, 2020. The Respondents have also filed to the Court a Respondents'
Motion for Damages for Frivolous Appeal Pursuant to Rule 42 which was docketed
to the Court also on December 3, 2020. Under Supreme Court Rule 21.4 the first
date of distribution for this motion appears to be December 14, 2020. This
application is being filed 14 days prior to the due date for the Reply to the Petition
for Writ or Certiorari and 10 days prior to the response for Motion for Damages filed
by the Respondent.

As of the date of this letter, Petitioners have yet to be served by the
Respondent with the Respondents' Brief In Opposition to Petition For Writ of
Certiorari, Supplemental Appendix or the Motion for Damages for Frivolous Appeal
Pursuant to Rule 42 which have been filed into this Court. Under Supreme Court
Rule 29.3 Respondent is required to serve these documents to Petitioner.

Pursuant to the Court's Order of March 19, 2020, addressing the extension of
deadlines, Petitioners respectfully requests that this Court:
1)Delay the distribution of this petition of writ for certiorari to allow time to file a
Reply Brief until February 1, 2020 by granting a 60-day extension.
2)Delay the distribution of the Respondent's Motion for Damages by granting a 60day extension until February 1, 2020 to allow Petitioners time to file a response.
Petitioner requires the additional time for reasons related to health issues
both complicated by the COVID pandemic. The Petitioner may have been exposed
to COVID and has recently been recovering from illnesses which may be related to
COVID. There is also a recent emergency surgery of an immediate family member
who resides out of state which required Petitioner to travel from Georgia to North
Carolina on November 29, 2020, to become a caregiver. Petitioner is still away from
home and functioning in a caregiver capacity. Petitioners also have yet to be served _
by Respondents on either filed document to this Court. Petitioners, who are also
pro-se, are limited in time and capacity based on delay in being served documents
filed to the court and health issues identified and require time once documents have
been served to review and prepare a Reply to the petition for certiorari and a
response to Respondent's motion.
Petitioner has not previously sought an extension of time from this Court.

Sincerely,

l

etfv
f

- t iti/t4-tqe tA,r57 OVA

George M. Matthews, pro se
Nina M. Matthews, pro se
6038 Katie Emma Drive
Powder Springs, GA 30127
Email: matthews.6038@yahoo.com
Phone: 404-213-8324

Case No. 20-565

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.
PROOF OF SERVICE
I, George Matthews and I, Nina Matthews, do swear or declare that on this
date, December 5, 2020, as required by the U.S. Supreme Court Rule 29, I have
served the enclosed REQUEST FOR EXTENSION on each party proceeding or that
party's counsel, and on every other person required to be serviced, by depositing an
envelope containing the above document in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
David Merbaum, 5755 North Point Pkwy, STE 284, Alpharetta, GA 30022
Andrew Becker, 5755 North Point Pkwy, STE 284, Alpharetta, GA 30022
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 5, 2020.

Plerbk Lit,51/001
tthews, pro se

a

ot/t7t;L_

Nina Matthews, pro se

